Nos. 20-512 & 20-520

In The

Supreme Court of the United States
♦

National Collegiate Athletic Association,
Petitioner,

v.
Shawne Alston, et al.,
♦

Respondents,

American Athletic Conference, et al.,
Petitioners,

v.
Shawne Alston, et al.,
Respondents.
♦

On Writs of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
♦

BRIEF OF AMICI CURIAE
SPORTS ECONOMISTS
IN SUPPORT OF RESPONDENTS
♦

Eric L. Cramer
Daniel J. Walker
Mark R. Suter
Counsel of Record
BERGER MONTAGUE PC
BERGER MONTAGUE PC
2001 Pennsylvania Avenue, NW 1818 Market Street
Suite 3600
Suite 300
Philadelphia, PA 19103
Washington, DC 20006
(202) 559-9745
dwalker@bm.net
Counsel for Amici Curiae Sports Economists
March 10, 2021

i
TABLE OF CONTENTS
INTEREST OF AMICI CURIAE.......................................... 1
SUMMARY OF ARGUMENT............................................... 2
ARGUMENT.......................................................................... 3
I.

Relevant Economic Research................................ 3
A.

Economics Research on College Sports...... 3

B.

Relationship
of
Economics
Research to This Case.................................... 4

II. The NCAA Is Not a Sports League........................ 5
A.

Conferences and Independents
Perform the League Function in
College Sports.................................................. 6

B.

The NCAA Is Not a League.......................... 10

III. The NCAA Is Not a College Sports
Production Joint Venture..................................... 13
A.

The NCAA Does Not Produce
College Sports................................................ 13

B.

The Danger of Believing that the
NCAA Produces College Sports.................. 14

IV. Amateur College Sports Can Exist
Without the NCAA................................................. 15
A.

The Peculiar Definition of NCAA
“Amateurism”................................................. 15

ii

V.

B.

Amateur College Sports Already
Exist Without the NCAA............................... 17

C.

What If the NCAA Version of
“Amateur” Sports Did Disappear?............... 19

The NCAA Facilitates a Cartel Over
College Athletes..................................................... 20
A.

Member Conferences,
Independents, and Their NCAA Cartel....... 21

B.

The General Characteristics of
Any Cartel....................................................... 23

C.

Transfers, Inefficiency, and the
NCAA Cartel Over College Athletes............ 23

D. Competitive
Harm,
College
Athletes, and College Sports Fans.............. 27
CONCLUSION..................................................................... 29
APPENDIX:
Complete List of Amici Curiae
Sports Economists............................................................. 1a

iii
TABLE OF AUTHORITIES
CASES
American Needle, Inc. v. National Football
League, 560 U.S. 183 (2010).......................................... 9
National Collegiate Athletic Association v.
Board of Regents of the University of
Oklahoma, 468 U.S. 85 (1984)............................ 3, 7, 10
STATUTE
Sports Broadcasting Act, Pub. L. No. 87-331,
75 Stat. 732 (codified as amended
15 U.S.C. § 1291)........................................................... 10
OTHER AUTHORITIES
Mathilde Adams, Learfield and EA to Launch
Largest-Ever College Esports League,
Gambling News (Oct. 29, 2020), https://www.
gamblingnews.com/news/learfield-and-eato-launch-largest-ever-college-esports-league/......... 18
Roger D. Blair & Wenche Wang, The NCAA
Cartel and Antitrust Policy, 52 Rev. Indus.
Org. 351 (Nov. 20, 2017)................................................ 4
Robert H. Bork, The Antitrust Paradox: A
Policy at War With Itself (1978).................................. 9
Robert W. Brown, An Estimate of the Rent
Generated by a Premium College Football
Player, 31 Econ. Inquiry 671 (Oct. 1993)................... 25
Robert W. Brown, Do NFL Player Earnings
Compensate for Monopsony Exploitation
in College?, 13 J. Sports Econ. 393 (2012)................ 25

iv
Robert W. Brown, Research Note: Estimates of
College Football Player Rents, 12 J. Sports
Econ. 200 (2010)........................................................... 25
Walter Byers & Charles Hammer,
Unsportsmanlike Conduct: Exploiting
College Athletes (1995)................................................ 16
H.B. Duran, ESPN to Host College Esports
Championship with Blizzard and
Capcom, ESport Observer (Mar. 14, 2019),
https://esportsobserver.com/espn-collegeesports-championship................................................. 18
U.S. Dep’t of Educ., Cost of Attendance
(Budget), 3 Federal Student Aid Handbook
ch. 2 (Aug. 30, 2019), http://ifap.ed.gov/
sites/default/files/attachments/201910/1920FSAHbkVol3Ch2.pdf....................................... 17
John L. Fizel & Randall W. Bennett, The
Impact of College Football Telecasts on
College Football Attendance, 70 Soc. Sci. Q.
980 (1989)........................................................................ 3
John Fizel & Rodney Fort, Economics of
College Sports (2006).................................................... 4
Arthur A. Fleisher III, Brian L. Goff & Robert
D. Tollison, The National Collegiate
Athletic Association: A Study in Cartel
Behavior (1992)........................................................... 3, 4
Michael A. Flynn & Richard J. Gilbert, The
Analysis of Professional Sports Leagues
as Joint Ventures, 111 Econ. J. F27 (2001)................ 4

v
Rodney Fort, College Sports Competitive
Balance “Beliefs” and the Rule of Reason:
Applied Theory and a Literature Review,
62 Antitrust Bull. 15 (2017).......................................... 4
Rodney Fort, Collegiate Athletics Spending:
Principals and Agents v. Arms Race, 2 J.
Amateur Sport 119 (2016).............................................. 4
Rodney Fort, Modeling Competitive
Imbalance and Self-Regulation in College
Sports, 52 Rev. Indus. Org. 231 (2017)......................... 4
Rodney Fort, Sports Economics (2018)..................... 4, 9, 28
Rodney Fort & James Quirk, The College
Football Industry in Sports Economics:
Current Research 11 (John Fizel, Elizabeth
Gustafson & Lawrence Hadley eds., 1999)............. 3, 4
Rodney Fort & Jason Winfree, 15 Sports Myths
and Why They’re Wrong (2013)................................. 4, 6
Brian L. Goff, Effects of University Athletics
on the University: A Review and
Extension of Empirical Assessment, 14 J.
Sport Mgmt. 854 (2000).................................................. 4
Adam Hoffer, Brad R. Humphreys, Donald J.
Lacombe & Jane Ruseski, Trends in NCAA
Athletic Spending: Arms Race or Rising
Tide?, 16 J. Sports Econ. 576 (2015)............................ 4
Lawrence M. Kahn, Markets: Cartel Behavior
and Amateurism in College Sports, 21 J.
Econ. Persp. 209 (2007).................................................. 4

vi
Frank Litsky, NCAA Buys NIT for $56.5
Million, N.Y. Times (Aug. 18, 2005),
https://www.nytimes.com/2005/08/18/
sports/ncaabasketball/ncaa-buys-nit-for565-million.html............................................................ 12
Brian Mills & Jason Winfree, Athlete Pay and
Competitive Balance in College Athletics,
52 Rev. Indus. Org. 211 (2017).................................... 19
Next College Student Athlete, Esports
Tournaments and Events, https://
www.ncsasports.org/college-esportsscholarships/esports-tournaments (last
visited March 10, 2021)................................................ 18
Roger G. Noll, The Organization of Sports
Leagues, 19 Oxford Rev. Econ. Pol’y 530 (2003).... 4, 9
Holger Preuss, The Economics of Staging the
Olympics: A Comparison of the Games, 19722008 (2004).................................................................... 20
Daniel A. Rascher & Andrew D. Schwarz,
Neither Reasonable nor Necessary:
“Amateurism” in Big-Time College Sports,
Antitrust, Special Sports Issue (Spring 2000)............ 15
Simon Rottenberg, The Baseball Players’
Labor Market, 64 J. Pol. Econ. 242 (1956).................. 3
Steven Salaga & Rodney Fort, Structural
Change in Competitive Balance in Big
Time College Football, 50 Rev. Indus.
Org. 27 (2017)............................................................... 19

vii
Allen R. Sanderson & John J. Siegfried, The
National Collegiate Athletic Association
Cartel: Why it Exists, How it Works, and
What it Does, 52 Rev. Indus. Org. 185 (2017).............. 4
Allen R. Sanderson & John J. Siegfried,
The Case for Paying College Athletes,
29 J. Econ. Persp. 115 (2015)......................................... 4
John J. Siegfried & Molly Garner Burba, The
College Football Association Television
Broadcast Cartel, 49 Antitrust Bull. 799 (2004)....... 3
Ben Sledge, CS:GO, Valorant, and LoL get
New Collegiate Esports Tournaments this
Year, PCGamesN (Oct. 13, 2020),
https://www.pcgamesn.com/league-oflegends/faceit-collegiate-tournaments....................... 18

1
INTEREST OF THE AMICI CURIAE
This brief is submitted by a group of economists,
listed in the appendix, with research experience on
the economics of sports and/or antitrust economics.1
The goal of the amici is to demonstrate to the Court
the following conclusions from economic analysis: the
National Collegiate Athletic Association (“NCAA”) is not
a league; the NCAA is not a production joint venture;
amateur college sports can exist without the NCAA;
and the NCAA facilitates a conference and independent
member cartel over college athletes.
As citizens and professional economists, amici have
a substantial interest in fostering the appropriate use
of economics in antitrust. Further to that aim, amici
have a substantial interest in assuring that antitrust
precedents are not based on economic assumptions that
conflict with the consensus from economics research. As
sports economists, amici are especially qualified to make
these points.
For example, in their brief, other economists have
gone to unreasonable lengths to stretch economics to
defend the actions of the NCAA and its members. But
expertise and even distinction in one area of economics
should not be confused with specific knowledge of the
economics of college sports. These other economists fail
to cite a single research publication in sports economics.
For decades, amici have undertaken challenging
economic analyses of sports and herein seek to set the
record straight by presenting the results of their careerlong work in sports economics.
No counsel for either party was in any way involved in
preparing this brief. No person other than amici curiae and their
counsel made any financial contribution to pay for the preparation
and submission of this brief. None of amici curiae are serving as
experts in this matter. Counsel of record gave consent to the filing.
1

2
SUMMARY OF ARGUMENT
The consensus of research on the economics of
sports flatly rejects the claims by the NCAA that it cannot
cause anticompetitive harm by collaborating in core
business activities.
The consensus of research in sports economics
flatly rejects any claim that cooperation by member
conferences of the NCAA in setting and enforcing current
limits on the compensation of college athletes is required
to create maximally popular college sports. Ignoring this
consensus leads to the erroneous conclusion that the
NCAA and its members cannot engage in anticompetitive
collaboration in “core venture functions.” This erroneous
assertion, in turn, leads to legal and policy conclusions
that are harmful to the competitive process and reduce
economic efficiency.
The NCAA cartel reduces competition for athletes,
while benefitting NCAA members by fixing the price of
college athlete services below a competitively determined
level. This anticompetitive outcome causes well-known
economic inefficiencies of an input cartel, including
lower quality of play.
Amici ask the Court to consider the actual results of
economic research on college sports in its consideration
of this case. The NCAA is not a league. Instead, the
NCAA is an organization created by member colleges and
conferences to create uniform playing rules, to regulate
the behavior and compensation of college athletes,
to organize and to market national championships in
some but not all sports (not including the Football Bowl
Subdivision [“FBS”] football, the top level of college
football), and to wield the monopoly power of those
member conferences and independents acting together
to exclude competitors in the organization of national
championships.

3
The upshot of these main points is that member
conferences collectively use the NCAA for two purposes:
as a standards organization to develop common operating
rules and as a cartel that fixes the price of college athletes.
Operating a price fixing cartel is not a necessary activity
in the creation of college sports that are highly popular,
but it is economically anticompetitive and inefficient.
ARGUMENT
I. Relevant Economics Research
A. Economics Research on College Sports
Economics research on sports leagues dates to
the seminal article by Simon Rottenberg (1956). This
article was the first to demonstrate that restrictions on
compensation of athletes do not enhance competitive
balance within a sports league. Research on the
economics of college sports, per se, has been ongoing
since the 1980s, covering every aspect of that endeavor.
This summary cannot possibly cover all of this work and
so offers an overview.
The earliest economic research on college sports
analyzed the impacts of NCAA v. Board of Regents of
the University of Oklahoma, 468 U.S. 85 (1984) on the
quantity and price of television broadcasts (Fizel and
Bennett [1989]). Fort and Quirk (1999) and Siegfried
and Burba (2004) continued that analysis showing how
Board of Regents led to an enormous increase in the
number of college games that are televised, combined
with a substantial reduction in television rights fees.
Of course, much has changed since Board of Regents
and economic research on college sports coalesced
around analysis of the core economic issues in college
sports. The first comprehensive economic study of college
sports was the book by Fleisher, Goff, and Tollison, The

4
National Collegiate Athletic Association: A Study in
Cartel Behavior (1992), which described how the NCAA
operates as a cartel and identified the inefficiencies
created by its cartel operations. Some mathematical
rigor, predictive modeling, and comparisons to empirical
work by others are in Fort and Quirk (1999). A more
recent overview of all aspects of college sports is in the
edited volume by Fizel and Fort (2006). Summaries of the
cartel behavior of the NCAA and its member conferences
appear in Kahn (2007), Siegfried and Sanderson (2015),
and Sanderson and Siegfried (2018). An attempt to sort
all of this out for the courts is in Fort (2017).
During the past four decades economists have
studied all aspects of the structure of college sports,
relating the goals of university administrators to their
choice to form college sports conferences, and on to
their other creation, the NCAA. Goff (2000) identifies
the values from college sports to universities. Flynn
and Gilbert (2001) and Noll (2003) present detailed
analyses of the distinction between efficiency-enhancing
league functions and anticompetitive collusion in all
sports. Hoffer, Humphreys, Lacomb, and Ruseski (2015)
analyze the motivations of sports administrators. Fort
and Winfree (2013) and Fort (2016) focus on the actual
outcomes of college sports finance, debunking the arms
race myth. A rigorous theoretical treatment is in Fort
(2018). A review of this literature, plus a refutation of
efficiency justifications for the NCAA cartel, appear in
Blair and Wang (2018).
B. Relationship of Economics Research
to This Case
The relationship of economics research to this case
is that all of the fundamental economic issues about
the operation of college sports have been examined in
objective research by sports economists. What objectives

5
are pursued by those creating and organizing college
sports? How are college sports organized to achieve
those objectives? What is the impact of the organization
of college sports on the product offered to fans and on
the athlete labor input to that production process? This
brief presents what economics research has to say about
the important issues with which the Court is grappling.
II. The NCAA Is Not a Sports League
In virtually all sports, most contests are organized in
a league. Typically, leagues adopt common rules of play
and player eligibility, and schedule events that culminate
in championships. Although seven FBS colleges field
football teams that are “independents” (i.e., not members
of any conference), in both FBS and Division I more
broadly, all colleges belong to a conference for at
least some sports. For example, no Division I college
currently operates as an independent in men’s or women’s
basketball.
For the vast majority of Division I colleges, conference
play is by far the most important part of a season in
any sport. Most regular season contests are part of a
conference schedule.
The NCAA organizes national championships in
several sports, including men’s and women’s basketball.
But post-season tournaments are simply not relevant to
most Division I college teams. Most Division I colleges
have no realistic chance to win a national championship
in men’s or women’s basketball, or even to qualify
for the NCAA post-season championship basketball
tournaments. Thus, for the majority of Division I colleges,
success or failure during a season — both athletic success
and success in attracting and pleasing fans — depends
exclusively on success in conference competitions. For

6
FBS members, the NCAA is not involved in organizing
the national championship.
A. Conferences and Independents Perform League
Functions in College Sports
Colleges organize almost all sports through
conferences because doing so serves their interests.
Intercollegiate athletics are valuable to university
administrators not as ends in themselves, but because
they help generate resources to pursue their primary
objectives — research, teaching, and service. The
consensus of economic research shows that those
resources come from more than just revenues from
athletic contests, but also from larger student applicant
and faculty hiring pools, alumni and booster political
support, and as part of hosting potential donors (Fort
and Winfree, 2013, Chapters 1-3).
Originally college sports teams were “independents”
(i.e., not members of conferences). But soon most teams
chose to join conferences to create values through
cooperation that they could not create by themselves.
Cooperation among members makes conference play
happen and brands that play as different from other
conferences and from independent play. Common rules,
a common schedule, and the creation of a conference
championship increase consumer demand for college
sports, and in so doing raise the value of college sports
to universities as they pursue resources for research,
teaching, and service. While cooperation within a
conference raises the monetary value of play, conference
identification also creates interest and value among
students and important clientele.
Some conference cooperation occurs through joint
ventures that are not required to make and brand play.
Instead, they increase revenues.

7
An obvious example of revenue enhancement
through conference cooperation is the joint sale of media
rights. As a costless by-product of play, each university
can sell media rights on its own. Colleges often did so in
the past. For example, they did so briefly after the Board
of Regents decision. They do so even today, with the
most lucrative examples being the University of Notre
Dame and Brigham Young University (“BYU”) football
rights and the University of Texas Longhorn Network. All
FBS football teams have enough fans to create at least
local broadcast value.
Cooperating in the sale of these rights through a
conference results in a higher return to each conference
member than each could otherwise obtain acting
independently, causing conferences to create their own
media networks. Increasing media rights payments via
conference marketing reduces the amount that the
universities must invest from their general budgets to
obtain the research, teaching, and service resources that
athletics generates.
One must not ignore independents. In 1973, when
NCAA Divisions I, II, and III were created, 36 colleges
were independents in football. When Division I-A was
distinguished from Division I-AA in 1978, 33 colleges
were football independents. However, since then nearly
all independents have decided to join conferences.
Indeed, the Big East Conference formed its FBS version
of football in 1991 from members that all had been
football independents in 1990 (Boston College, Miami
(FL), Pittsburgh, Rutgers, Syracuse, Temple, Virginia
Tech, and West Virginia).
At present, seven colleges are independents in FBS
football for a variety of reasons. Some are likely to
be between conference affiliations or may prefer a
conference affiliation but have not been able to obtain

8
one. Others are independents because they believe that
their interests (including revenue maximization) are
best served by remaining unaffiliated. All of the service
academies were once independent, but only Army (the
United States Military Academy) remains so today. For
other sports, Army is a member of the Patriot League.
BYU and Notre Dame both have substantial nationwide
followings; however, both BYU and Notre Dame are
members of conferences for sports other than football.
BYU plays in the West Coast Conference for basketball
and some other sports, and the Mountain Pacific Sports
Federation for sports that are not organized by the West
Coast Conference. For most sports, Notre Dame belongs
to the Atlantic Coast Conference (“ACC”), but also is a
member of the Big Ten for hockey. Even for football, Notre
Dame joined the ACC during the coronavirus pandemic.
Among the FBS independents, only BYU and Notre
Dame field teams of a sufficient quality to be contenders
for participation in the College Football Playoff (“CFP”).
Army, once a national power, has not won a national
championship since 1946. The University of Connecticut,
Liberty University, University of Massachusetts, and New
Mexico State University have never been contenders to
win a national championship in football.
The application of sports economics to the facts
about conference membership leads to two important
conclusions. First, the “leagues” in college sports are
the conferences. College conferences (except for seven
independents in football) produce nearly all college
sports. They are the source of the cooperatively obtained
values created by determining membership, defining
rules of play, organizing officiating (and appeals),
setting schedules, and determining the structure of their
conference championships.

9
Second, distinguishing joint venture activities that
do not increase efficiency from the activities that are
required elements of a conference, such as common rules,
a common schedule, and a conference championship,
is of crucial importance. Noll (2003) reminded us of
this distinction, which has become textbook material,
literally, since then (see Fort, 2018, Chapter 13). The
importance of the distinction can be seen in the following
example.
In The Antitrust Paradox (1978), Robert Bork
states: “[S]ome activities can only be carried out jointly.
Perhaps the leading example is league sports. When a
league of professional lacrosse teams is formed, it
would be pointless to declare their cooperation illegal
on the ground that there are no other professional
lacrosse teams.” This is the essence of the cooperation
that is required to distinguish league play from
independent play.
Bork’s statement is not true of everything else that
a league or other group of teams might do, that is,
all conceivable forms of cooperation. If all of Bork’s
professional lacrosse teams decided to centralize team
merchandise sales in their league, they would not by so
doing create the products that bear the names and logos
of league members. As a matter of antitrust economics,
whether this joint venture harmed competition or
enhanced efficiency would have to be assessed through
an economic analysis of the competitive effects of
pooling rights sales, as set forth in American Needle, Inc.
v. National Football League, 560 U.S. 183 (2010).
Likewise, if the sole professional lacrosse league
decided to pool the sale of television rights to all
league games, application of antitrust economics would
be required to ascertain whether the reduction in
competition in the sale of television rights was more

10
than offset by improved efficiency or was attractive
to league members only because it enabled the league
to extract monopoly profits in selling those rights.
Economic research on this issue has concluded that
pooling the sale of television rights for all teams in a
sport caused anticompetitive harm (reduced output and
higher prices) in professional sports after passage of
the Sports Broadcasting Act in 1961, Pub. L. No. 87-331,
75 Stat. 732 (codified as amended 15 U.S.C. § 1291)
(granting an antitrust exemption to professional leagues
for centralizing the sale of broadcast rights) and NCAA
football, findings that are consistent with the decision of
the Court in Board of Regents.
B. The NCAA Is Not a League
The NCAA errs by claiming that it is a league.
Following the conclusions discussed above, the NCAA
is a consortium of colleges and conferences that does
not perform the core functions of a league. Conference
members create conference play and organize the joint
venture activities of a league that are described in
the preceding section. At the most basic definition of
a league, the NCAA does not create what a league is
designed to create. Rules, schedules, officiating, and
conference championships all are created by member
conferences and independents.
What the NCAA actually is can be discerned from
what it does. The NCAA facilitates collaboration among
conferences and colleges to obtain additional benefits for
themselves from cooperation, whether procompetitive
or anticompetitive, that its members cannot obtain
on their own. Member conferences and independents
invented the NCAA. These NCAA members reach
cooperative agreements, some of which are joint
ventures, through the NCAA. Member conferences and
colleges are, in fact, the NCAA.

11
Each and every NCAA activity actually is an activity
by the members. Each activity requires inter-conference
cooperation to produce an effective result from the
perspective of NCAA members. An example is the
adoption of common playing rules across conferences.
Early on, the few conferences that existed each developed
their own rules. But colleges and their conferences
recognized that uniform playing rules enhanced the
value of play. To achieve uniformity, colleges cooperated
to negotiate common rules. The very first job of the
forerunner organization of the NCAA was to facilitate an
agreement on the playing rules of football.
Colleges also saw the value of declaring interconference “national champions” in each sport. Interconference cooperation and agreement on the process
of crowning a national champion adds legitimacy in the
eyes of member conferences and, more importantly,
college sports fans. The result would be that these fans
would be willing to pay more to watch national playoff
and championship games. That money then is distributed
to member conferences and each university can use it
to defray the cost of their sports programs, conserving
general budget money.
To see that revenue is the motivator, note that
the conferences have only agreed to select teams for
participation, to market championships, and to sell
sponsorships and media rights centrally through their
NCAA for some sports. The FBS championship is not
an NCAA joint venture, handled instead by the College
Football Playoff, a separate organization composed of
the ten FBS conferences plus independent Notre Dame.
Member conferences also do not use their NCAA for
national championships in many other sports, including
bicycle racing, boxing, e-sports, rowing, roller hockey,
rugby, sailing, and squash.

12
Member conferences and colleges also desired
common regulation of the qualification, eligibility, and
compensation of athletes. The NCAA seeks to justify
some of these regulations as designed to pursue the
so-called desire for college sports to remain “amateur”
compared to professional leagues. This issue is of
such overriding importance, with additional separate
economic implications and impacts, that coverage of the
economics of “amateurism” is reserved to a later section
of this brief.
Acting together under their NCAA identity, member
conferences and colleges eliminated other organizations
from performing the function of creating a national
championship. The women’s version of the national
basketball championships originally occurred under the
auspices of the Commission on Intercollegiate Athletics
for Women (1969-1971) and then the Association for
Intercollegiate Athletics for Women (1972-1982). The
NCAA’s Official Final Four Record shows that their first
women’s championship was in 1982. The Association
for Intercollegiate Athletics for Women folded that
same year.
The same fate befell the National Invitational
Tournament (“NIT”), a competitor in organizing a national
championship in men’s basketball. After Marquette chose
the NIT over the NCAA tournament in 1970, members
(via their NCAA) adopted a rule that no member college
could accept an invitation to the NIT championship if
it also was invited to the NCAA championship. As a
result, the NIT rapidly diminished in popularity. The NIT
ultimately sued the NCAA under the antitrust laws. In the
settlement of that suit, the NCAA simply bought the NIT
for a reported $56.5 million (Litsky, 2005).
NCAA members cooperate to control the movement
of colleges among Division I (including FCS and FBS

13
football), Division II, and Division III. This restriction on
entry has no efficiency justification. “NCAA approval”
is not needed for colleges to move from one conference
to another in the same division. A more competitive
alternative would be to allow a higher-division conference
to invite lower-division teams to join without further
scrutiny by the NCAA.
The key lesson from this section is that there is no
economic basis for the claim that the NCAA is a league.
The NCAA is a collaborative joint venture for obtaining
benefits for its members. The NCAA does not achieve
these benefits by performing the functions of a league.
Instead, the NCAA is cooperatively managed by member
conferences and colleges to make rules that they find
collectively beneficial. Most notably, its restrictions on
the market for athletes benefit its members by reducing
the costs of fielding teams.
III. The NCAA Is Not a College Sports Production
Joint Venture
A. The NCAA Does Not Produce College Sports
Section I demonstrated that the NCAA is not a league.
The NCAA is a creation of university and conference
administrators that was created to obtain benefits for
its members that they cannot achieve acting alone. The
member colleges and conferences are the NCAA, and it
is the members that are producing college sports, not
the NCAA.
The organization called the NCAA no more produces
college sports than a farm cooperative produces grain.
In a cooperative, a group of farmers agrees to pool
grain sales by storing grain together in an elevator,
hoping to release the grain over time at opportune price
moments. The grain cooperative is a device invented and

14
implemented by the actual grain producers. It does not
produce any grain.
The NCAA does not produce amateur college sports.
Colleges do this production through their conferences
or as independents. For example, the Big Ten produces
men’s and women’s basketball games, under rules and
player regulations cooperatively designed by the Big Ten
and the rest of the member conferences and independents
through their NCAA. Indeed, some conferences have
rules that are stricter than the rules of the NCAA. It is
these conferences (and a few independents) that produce
amateur college sports and did so for decades prior to
the start of NCAA regulation of athlete compensation
in 1956.
B. The Danger of Believing that the NCAA
Produces College Sports
Other amici curiae economists, in support of the
NCAA, claim that the rulings of courts below tinkered
with NCAA sports production, with potentially dire
consequences for entrepreneurship and innovation. But
those other economists provided no theory or evidence
that the NCAA produces college sports in the first place,
much less that it has been the source of innovation in
college sports. Indeed, since the application of valid
economics shows that the NCAA does not produce
college sports, those other economists claim a foul
that did not and cannot occur. Member conferences
and independents have done all of the production
and innovation.
Instead, the courts below rightfully and justifiably
applied antitrust to cooperatively approved rules,
designed and enforced by member conferences via their
NCAA, which reduce athlete pay. The overwhelming
consensus among sports economists about the

15
anticompetitive nature of these rules is discussed in the
final section of this brief.
Finally, the incentives put in place by legitimizing the
false claim that the NCAA engages in sports production
are truly harmful. Suppose members of the fast service
food industry could form the National Fast Service
Association (NFSA) with the sole purpose of reducing
worker pay below the prevailing market wage. If by
labeling all industry products as “NFSA” fast food
they could thereby falsely claim that NFSA is engaged
in production, their defense against antitrust claims
would be that without the NFSA, an “NFSA hamburger
sandwich” is not possible. They further could argue that
without the NFSA the value being produced for NFSA
hamburger customers would be lost, and if the courts
forced them to pay a market wage, they could only do
less “NFSA hamburger” production.
This is exactly what NCAA members are doing with
their “NCAA as a producer” misdirection. The NCAA is
not the producer of college sports.
IV. Amateur College Sports Can Exist
Without the NCAA
The primary claim addressed in this section is that
“amateur” college sports would cease to exist without
the NCAA.
A. The Peculiar Definition of NCAA “Amateurism”
The NCAA defines “amateurism” as compliance with
NCAA compensation rules. Hence it claims that if the
NCAA were to disappear, so would “amateurism” in
college sports. Rascher and Schwarz (2000) demonstrate
that this argument is tautological. Simply stating a
tautology is not the same thing as proving that amateur

16
college sports would cease to exist if the NCAA stopped
defining the term.
Indeed, the definition of “amateur” jointly arrived at
by members and imposed on college athletes via their
NCAA is quite peculiar. Originally, the NCAA’s definition
was zero compensation, consistent with the common
understanding of the term amateur. As documented by
former NCAA President Walter Byers and C.H. Hammer
(1995), the original NCAA definition disappeared
permanently in 1956, when the NCAA amended its
definition of “amateurism” to allow grants-in-aid. At that
time, “amateur” came to mean a cap on compensation
that is whatever members, acting together, jointly say
it is.
The amateur compensation cap is actually a cap
on athletic department spending on athletes. NCAA
members, acting jointly, limit both the value of a grant-inaid and the number of scholarships that can be awarded
in each sport. Thus, the amateur compensation cap
varies across member institutions, even within the same
conference, because colleges differ in the sports that
they sponsor and value of a grant-in-aid. As a result, the
athlete cap allows the difference between larger-revenue
programs and smaller-revenue programs to remain intact.
This is demonstrated in the final section of this brief.
Finally, although the cap on compensation is labeled
by the NCAA as a “cost of attendance,” this label is
misleading to the extent that it implies that college
athletes are being reimbursed for actual costs. In fact,
college athletic grants-in-aid include cash payments
that are based on a college’s estimate of the cost of the
ordinary living expenses of their students, including such
things as rent, food, incidental expenses, and allowances
for childcare for athletes who are parents. Once the
cash payment for a particular student is calculated and

17
disbursed, how much an athlete actually spends on these
items is not controlled or even monitored by the NCAA
or colleges. Moreover, compensation is not limited to
cost of attendance, but can include additional payments,
including rewards for playing in championship events.
Thus, the economically correct way to conceptualize
athletic compensation under NCAA rules is that athletes
are paid a salary that is based partly on their performance
and that is designed to cover the costs of an adequate if
spartan standard of living in the community in which the
college is located (Federal Student Aid Handbook, 2019).
B. Amateur College Sports Already Exist
Without the NCAA
The argument that “amateur” college sports would
not exist without cooperation among conference
members via the NCAA seeks to equate “amateur” and
“NCAA.” Accepting this tautology leads to the erroneous
conclusion that the only amateur college sports are
NCAA sports. But the history of the NCAA betrays this
argument.
Inter-conference cooperation via the NCAA is not
required to produce amateur college sports. From the
creation of the predecessor organization to the NCAA in
1906 until 1956, conferences made and enforced their own
“amateur” rules regarding eligibility and scholarships.
Even today, conferences can and do set their own
compensation rules as long as these rules are at least as
restrictive as NCAA rules. An example is the prohibition
against athletic scholarships in the Ivy League. It was
not until 1956 that the member conferences agreed
to institute and enforce a definition of “amateur”
competition that was binding on all members. In the
decades since, restrictions on the compensation of
college athletes have waxed and waned, revealing that

18
these restrictions are not derived from a coherent,
consistent definition of amateurism.
Even beyond this history, it simply is not true that
only NCAA sports are amateur college sports. Many
amateur college sports are managed under a college
sports organization other than the NCAA, the National
Association of Intercollegiate Athletics (“NAIA”). In
addition, colleges often organize amateur college sports
outside the structure of a national organization as
university sanctioned club sports. Some colleges organize
clubs in sports that are as old as sports itself, like
golf. Some are brand new, like e-sports (competitions
involving video games). And all of these college sports
exist without NCAA sanction or involvement. Finally,
many sports are managed by a specialized national
organization for that sport.
NCAA restrictions on compensation do not apply to
sports that are not governed by the NCAA. Many allow
participants to earn prize money. In e-sports, some player
prize pools have been in the hundreds of thousands
of dollars, paid by the creators of the e-games. (Next
College Student Athlete, undated; Duran, 2019; Adams,
2020; Sledge, 2020).
Indeed, amateur college sports, consistent with the
common meaning of the word, may well have evolved if
the NCAA had never entered the picture in the first place.
The example of other world sports bears out this idea.
When amateur sports organizations in soccer and rugby,
for example, faced pressure toward professionalism, the
rules were changed to allow amateurs and professionals
to play alongside each other. In the case of rugby,
the desire of some to play as professionals led to
a split between professional “codes” — Rugby Union
and Rugby League. This split occurred in 1895, and
not until in 1995 was the amateur Rugby Union code

19
changed to accept professionals; that is 100 years where
professional and amateur codes existed independently
without undermining the sport of rugby. In other cases,
like golf, swimming, tennis, and track, an athlete has
the choice to compete as amateur or professional in
the same events. “Amateurism” is only forced on some
college athletes by the NCAA.
C. What If the NCAA Version of “Amateur”
Sports Disappeared?
The most obvious response to the claim that
NCAA’s definition of amateur sports would cease to
exist without the NCAA is simply, “So what?” Prior to
the implementation of athlete compensation caps by
member conferences via their NCAA, college football
was thriving, growing in popularity and as an economic
force. This suggests that substituting NCAA regulation
for conference regulation was not necessarily a good
thing for sports fans.
Indeed, no research on sports economics supports
the idea that college sports fans are better off under
the NCAA definition of “amateur” than under the
separate definitions of amateurism that were adopted
by each conference prior to the adoption of the NCAA’s
compensation rules. But there is evidence that the
popularity of college sports, and competitive balance
in college sports, have not been adversely affected by
alterations in the compensation received by college
athletes (see Salaga and Fort [2017], Mills and Winfree
[2017], and the extensive bibliographies therein).
The NCAA’s amateur compensation cap has been
raised repeatedly in the past 40 years, and college sports
has only grown more popular, not less. The grant-in-aid
cap was initially instituted in 1956. Interest in college
sports actually exploded after the implementation of

20
grants-in-aid, aided by television exposure. The grantin-aid cap was raised further to include full cost of
attendance in 2015. Interest in college sports kept
growing. And the compensation cap is currently under
pressure to include name, image, and likeness (“NIL”)
values, with the NCAA agreeing that this should happen
(although disagreeing over how). The district court’s
Findings of Fact is full of examples of NCAA “amateur”
compensation worth thousands of dollars not related
to educational expense (e.g., bowl gift bags, Olympic
athlete prizes). Nothing in the response by fans would
indicate that these payments reduce fan interest. The
same was true when the Olympics became more popular
after the IOC abandoned amateurism (Preuss, 2004).
While amici are not lawyers, amici do understand one
of the fundamental considerations behind the Court’s
deliberations. A joint venture must produce a product
that otherwise would not exist but for the existence of
the joint venture in order for joint pricing of the product
to be allowed. The NCAA fails to demonstrate that this is
true for amateur college sports. Amateur college sports
existed in the past and do to this very day exist without
any involvement by the NCAA.
V. The NCAA Facilitates a Cartel Over
College Athletes
Cooperation among conference members is required
in order to organize and brand conference play. If some
part of this type of cooperation is disallowed, say, by
an antitrust decision, play might cease to occur. Courts
have rightly been cautious about interfering with this
important aspect of college sports conferences.

21
A. Member Conferences, Independents, and
Their NCAA Cartel
Cooperatively setting an athlete compensation cap
across conferences is not required to organize or brand
conference play. To conclude otherwise is to grant NCAA
members carte blanche to ignore the antitrust laws in
deciding the scope of their cooperation. Courts are right
to scrutinize joint venture cooperation resulting in the
compensation cap on college athletes because it falls
under this category. The consensus of economic analysis
is that the NCAA’s compensation cap on college athletes
is unnecessary for the continuation of popular college
sports and, therefore, has no efficiency benefits and is
anticompetitive.
As an analogy, setting interface protocols between
computers and printers through cooperatively
determined standardization reduces costs for all while
adding value for buyers to printers and computers.
But this type of cooperation is decidedly different
from printer and computer companies getting together
to adopt no poaching rules for employees. The latter
are anticompetitive because they limit employment
opportunities and employee mobility and reduce
employee compensation relative to wages in a more
competitive labor market.
Additionally, the market power over labor created
by member conferences through their NCAA is quite
different than having market power over inputs due to
some innate market characteristic. Member conferences
act through their NCAA to rig the college athlete labor
market to create market power through cooperation.
Lower athlete compensation is the result.
Much of the debate over athlete regulation by
member conferences via their NCAA focuses only on
the amateur compensation cap since it comes first

22
to mind when discussing an “amateur” requirement.
However, the regulation of athletes extends beyond
that to restrict and reduce athlete mobility. As with the
computer firm analogy, these other rules reduce athlete
mobility, opportunities, and compensation relative to a
more competitive market.
The mobility restrictions are of two forms. The
National Letter of Intent is governed by member
conference commissioners, that is, the Collegiate
Commissioners Association, and then enforced by the
same commissioners via the NCAA. The National Letter
of Intent locks an athlete to a specific college program
prior to their career. The other mobility restriction is
NCAA transfer rules. These rules dramatically restrict
athlete mobility during their playing career, reducing
competitive options. Finally, NCAA rules governing
exit toward professional sports restrict mobility at the
end of an athlete’s career. And they do this in addition
to professional league impositions on players entering
their leagues.
A horizontal agreement is a cartel if it fixes prices
that would otherwise be set independently by the
parties to the agreement. This is precisely what the
amateur compensation cap agreement among NCAA
members does to the compensation of college athletes.
Effective price collusion requires enforcement harsh
enough to deter noncompliance with the fixed price.
The NCAA enforcement regulations, administered by the
Committee on Infractions and enforced by the Office of
the Committee on Infractions, satisfy this requirement.
Finally, a joint venture that collectively monopolizes
joint acquisition of an input is anticompetitive if it does
not produce any product that would otherwise not be
produced. That the NCAA is not necessary in order
to produce amateur college sports was demonstrated
earlier in Section III.

23
In economic terms, the cooperation between member
conferences and colleges via their NCAA embodies all
of the elements of a cartel. As a result, the NCAA is a
textbook example of a cartel, reducing compensation to
college athletes.
B. The General Characteristics of Any Cartel
Input cartels have two main characteristics. First, as
a result of setting the cartel price below the competitive
price, they transfer value from sellers of labor to buyers
of labor. That is, labor receives less than the competitive
return and buyers of labor keep the difference between
the higher competitive price and the lower cartel price.
Second, cartels create inefficiency in the input market.
Depending on how cartel price rules are designed, the
amount of labor acquired can be inefficient. The amount
and quality of labor hired can be less than is efficient.
Cartel pricing rules also can distort the incentive facing
labor to invest in job skills. Cartel arrangements that
reduce competition also cause inefficiency by eliminating
gains from exchange between some buyers and some
sellers of labor.
C. Transfers, Inefficiency, and the NCAA Cartel
Over College Athletes
The NCAA cartel that reduces compensation to
college athletes exhibits both of the general features of
any input cartel, namely, transfer of value from college
athletes to athletic departments and inefficiency. Both
are presented in this subsection.
The price reduction and transfer results of the
NCAA cartel rules follow from economic assessment
of the athlete compensation cap in Fort (2018). Athletic
directors (“ADs”) care about revenue. Without any
athlete compensation cap, they face a competitive supply

24
of athlete labor. To capture a part of the actual situation,
suppose there are two ADs. One directs a department
that can only collect less revenue from their output than
the other. So, there is a smaller-revenue AD and a largerrevenue AD. The market for athlete labor is the sum of
the individual AD demands (derived from the revenue
that athletes will produce).
The intersection between market demand and athlete
labor supply determines the total amount of athlete
labor hired in the market and the price of each unit of
athlete labor hired. Each AD then takes that price as
given and decides their individual athlete labor hired. As
is reasonable to expect, research in sports economics
shows that the larger-revenue AD hires more athlete
labor than does the smaller-revenue AD. And the sum of
their hiring is equal to the market amount.
Moving to the impact of the amateur compensation
cap, the first thing to note is that the cap for each AD is
different. The maximum allowed number of grants-in-aid
is common to both ADs restricted by NCAA rules. But the
value of the grant-in-aid varies across institutions. Even
if both ADs chose the maximum, their cap would be
different because both cost of attendance and additional
payments for performance are different at different
institutions.
NCAA rules can be chosen to maintain revenue
maximization across the two programs. The cap
specification simply has to allow each AD to choose the
same level of athlete labor as they did without the cap.
But since it really is a cap, each AD will spend less on
that same amount of athlete labor. Also, because of their
different athlete labor demands, the cap will drive the
price paid by the smaller-revenue college to be lower
than the price paid by the larger-revenue college.

25
The transfer from athletes to the athletic department
is now easy to see. It is just the difference between the
competitive price that would have been paid without
the amateur compensation cap and the amount that will
be paid with the enforcement of the cap. The transfer
is smaller from athletes at the smaller-revenue program
because, even though the price is lower, less athlete labor
is hired there. Further, if ADs are skillful negotiators,
they will transfer all of the possible payment down to a
level that just keeps the athletes providing their services
rather than going to their next best option.
The same analysis can be used on either “average”
grant-in-aid recipients or “star” grant-in-aid recipients.
It is intuitively obvious that the transfer is larger from
those athletes that generate more revenue. A higher
amount would be transferred from stars to their athletic
departments than from average grant-in-aid recipients
under the cartel amateur cap.
Economists have been demonstrating this result
of the NCAA cartel transfer from athletes to athletic
departments since Brown (1993), as he has updated
in Brown (2010). Later, Brown (2012) showed that the
typical professional NBA career does not pay enough to
offset the payment reduction suffered by college athletes
under the amateur compensation cap. The layperson is
blinded by the massive returns to superstars, but only
a very small percentage of players have careers that
generate a big payday.
Moving to the inefficiency results of the amateur
compensation cap, remember that the economic story so
far compares a world without the cap to a world with the
cap. In order to maximize revenue, the same amount of
athlete labor is hired under the amateur cap as without
it. So, for the NCAA cartel, the inefficiency does not

26
come from hiring less labor, it comes from lower quality
athletes once the amateur cap is in place.
This occurs as potential athletes consider their talent
investment under the cartel amateur compensation cap,
compared to the competitive situation. Athletes would be
expected to invest more in their skill chasing the higher
return in the absence of the amateur compensation
cap, relative to the lower price paid when the amateur
compensation cap is in place. This disincentive confronts
athletes prior to their entry into college sports and the
economic implication is that investment in athletic skill
is lower than it would be under competition.
In the limit, the disincentive may lead some athletes
to choose another path with a lower expected return.
The potential athletes that would have chosen the added
benefits of sports participation at the higher price absent
the amateur compensation cap are dissuaded from doing
so with the cap in place. The cap reduces investment
in the talent that is needed to be a college athlete, and
fewer potential athletes offer their services. That is the
definition of economic inefficiency.
Another type of inefficiency concerns the fact
that ADs, precluded from simply paying athletes, still
must compete for athlete talent. In the presence of
the amateur compensation cap, ADs allocate part of
the transfer from athletes to enticements-in-kind like
better housing, workout facilities, locker rooms, and
entertainment facilities. There can be inefficiencies
associated with enticements-in-kind. There may also
be an inefficiently large number of assistant coaching
positions relative to the number that would be without the
amateur compensation cap. And all athletic department
administrators and coaches can be paid more in the
presence of the amateur compensation cap than they
would be without it.

27
While the amateur cap, itself, creates inefficiency, so
too do the mobility restrictions that are the rest of the
cartel impositions on athletes, that is, the National Letter
of Intent and transfer restrictions. These restrictions
disallow welfare maximizing exchange. When an
agreeable buyer and seller exist, but their mutual
exchange agreement is precluded, inefficiency occurs.
And that is the impact of the member conference agreedupon NCAA mobility restrictions.
D. Competitive Harm, College Athletes, and
College Sports Fans
In the preceding economic assessment of the cartel
amateur compensation cap, the motivations of member
conferences of the NCAA are beside the point. It does
not matter why member conferences calculate and
enforce their “amateurism” definition du jour via their
NCAA. The effect is the same — a transfer of economic
value created by amateurs to the athletic department,
incentive inefficiencies in the investment by athletes, and
talent inefficiency due to mobility restrictions.
It does not matter that entrepreneurs and innovation
occur to the extent that they do in college sports.
Innovations in college sports do not change the fact
that the same transfers from athletes to their athletic
departments occur. Nor does it change the fact that
mobility restrictions create exchange inefficiency or that
disincentives to invest in being a college athlete, to the
point of choosing not to participate at all, result from the
amateur restrictions.
Further, it does not matter how university
administrators choose to reallocate the transfer
from athletes to other purposes. Whether university
administrators reallocate the value created by athletes
to the university educational mission or leave the money

28
with the AD to pursue other goals that can be obtained by
investment in athletics, the same transfers from athletes
were the source of the reallocation. And inefficiency is
the result.
While amici are not lawyers, amici are well-aware
of the courts’ responsibility in weighing the competitive
gains of a less restrictive alternative to the amateur
compensation cap against fan demand. In the first place,
the NCAA economists never studied the relationship
between changes in the amateur compensation cap
and fan demand. On the other hand, economists for the
athletes did study the relationship between changes
in the compensation cap and revenues, driven by fan
demand, and found no impact. This is consistent with the
economics research, cited above, that concludes a less
restrictive alternative to the amateur cap has not harmed
fan demand.
However, the findings of economists studying sports
is that the cartel over college athletes, designed and
enforced by member conferences and independents
through their NCAA, contains an overlooked
contribution that can aid the Court in its deliberation of
this important point.
A less restrictive alternative to the amateur
compensation cap will increase fan demand. The talent
investment inefficiency covered in the last section
would be removed, raising the quality of the athletes
participating and increasing the number of higher-quality
athletes. It is well-known from sports economics analysis
that willingness-to-pay, as an indicator of fan welfare, is
higher for higher-quality play (see Fort, 2018, Chapter 2).
In the ongoing debate about whether or not removal of
the amateur compensation cap will reduce demand, it
is clear from basic economics that, quite the opposite

29
will occur. Fan demand will increase with increased
athlete quality.
CONCLUSION
In conclusion:
•
•
•

The NCAA is not a sports league.
The NCAA is not a production joint venture.
Amateur college sports can exist without the
NCAA.
•
The NCAA facilitates a member conference
cartel over college athletes.
The upshot of these conclusions is that the “joint
venture” NCAA, designed and implemented by member
conferences and independents, is a price fixing
cartel over college athletes. The collusion of member
conferences and independents to fix this input price is
not necessary for member conferences and independents
to fulfill their necessary function of creating conference
and independent play. While most of the debate is about
the fairness to athletes, economics adds that there
are efficiency losses to this cartel behavior and that
removing the cartel actually produces efficiency gains
that the courts are not considering yet.
Amici urge the Court to add these conclusions from
the economic analysis of sports and reject the erroneous
“joint venture” plea by the NCAA.
It is in the interests of society that the full array of
antitrust relief be considered in any joint venture activity
arousing suspicion of anticompetitive behavior. The
demands that no further rule of reason “burden” be put
upon “the NCAA”, and that member conferences acting
via their NCAA deserve even more antitrust leniency, are
unsupported by economic findings.

30
Removing rule of reason scrutiny simply means
that joint venture activity that harms competition is
treated the same as joint venture activity that creates
mutual gain. Setting rules on fair play during games, or
the dimensions of playing fields, is one thing. Member
conferences of the NCAA acting cooperatively to regulate
athlete compensation is quite another. These two types
of cooperative activity are not the same thing and
should not be lumped together. To do so ignores the
very real inefficiency created by the resulting amateur
compensation cap and mobility restrictions imposed on
athletes by member conferences via their NCAA.
Respectfully submitted,
Daniel J. Walker
Counsel of Record
BERGER MONTAGUE PC
2001 Pennsylvania Avenue, NW
Suite 300
Washington, DC 20006
(202) 559-9745
dwalker@bm.net
Eric L. Cramer
Mark R. Suter
BERGER MONTAGUE PC
1818 Market Street
Suite 3600
Philadelphia, PA 19103
Counsel for Amici Curiae
Sports Economists
March 10, 2021

Appendix

1a
Appendix: Complete List of Amici Curiae
Sports Economists
Nola Agha, University of San Francisco
Rob Baade, Lake Forrest College
David Berri, Southern Utah University
Roger Blair, University of Florida
Stacey Brook, DePaul University
Robert Brown, Texas State University
Dennis Coates, University of Maryland Baltimore County
Craig Depken, II, University of North Carolina
at Charlotte
John Fizel, Pennsylvania State University Erie
Rodney Fort, University of Michigan
Brian Goff, Western Kentucky University
Jill Harris, U.S. Air Force Academy
Brad Humphreys, West Virginia University
R. Todd Jewell, Texas State University
Anthony Krautmann, DePaul University
Victor Matheson, College of the Holy Cross
Joel Maxcy, Drexel University
Allen Sanderson, University of Chicago
Raymond Sauer, Clemson University
John Siegfried, Vanderbilt University
Stefan Szymanski, University of Michigan
Jason Winfree, University of Idaho

